No. ______
In the

Supreme Court of the United States
__________________
KEITH PUNTENNEY, ET AL.,
Petitioners,
v.
IOWA UTILITIES BOARD, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of Iowa

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
EDUARDO E. SANTACANA
Counsel of Record
JAY RAPAPORT
KEKER, VAN NEST & PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
esantacana@keker.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Does a state’s exercise of eminent domain satisfy
the “public use” requirement of the Fifth Amendment’s
Takings Clause if the only benefits experienced within
that state are incidental?
Can a state satisfy the “public use” requirement of
the Fifth Amendment’s Takings Clause merely by
labeling the taking with a traditional category of public
use, without engaging in the “public purpose” analysis
outlined by Kelo v. City of New London, 545 U.S. 469
(2005)?

ii
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 DISCLOSURE
Petitioners Keith Puntenney; Laverne I. Johnson;
Richard R. Lamb, Trustee of the Richard R. Lamb
Revocable Trust; Marian D. Johnson by her agent
Verdell Johnson; Northwest Iowa Landowners
Association; and Iowa Farmland Owners Association,
Inc. were plaintiffs-appellants below.
Hickenbottom Experimental Farms, Inc. and
Prendergast Enterprises, Inc. were captioned as
petitioners below but are not petitioners here.
Respondent Iowa Utilities Board was a defendantappellee below. Respondents Office of Consumer
Advocate and The Main Coalition were intervenorsappellees below. Respondent Dakota Access, LLC was
an indispensable party-appellee below.
Sierra Club Iowa Chapter was a petitionerappellant below, but is no longer party to this action.
Iowa Farmland Owners Association, Inc. has no
parent corporation, and no publicly held company owns
10% or more of its stock.

iii
RELATED PROCEEDINGS
There are no proceedings that are directly related to
the case in this Court.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND
RULE 29.6 DISCLOSURE. . . . . . . . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
I.

Procedural Background. . . . . . . . . . . . . . . . . . 5
A. Petitioners and the Dakota Access
Pipeline . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. The Taking . . . . . . . . . . . . . . . . . . . . . . . . . 6
C. Judicial Review in Iowa District Court. . . 7

II.

The Iowa Supreme Court’s Decision. . . . . . . . 7

REASONS FOR GRANTING THE PETITION . . . . 9
I.

Courts are split on how to evaluate whether
a taking for use by a private entity has a
pretextual or incidental public purpose under
the Takings Clause . . . . . . . . . . . . . . . . . . . . . 9

v
A. Multiple courts permit inquiries into
subjective intent underlying a taking . . . 10
B. Multiple courts assess a taking’s purpose
by focusing on the nature of pre-taking
planning . . . . . . . . . . . . . . . . . . . . . . . . . . 11
C. At least one court weighs public and
private benefits against each other . . . . . 13
D. Two courts engage in no pretext analysis
at all when a project can be labeled a
traditional public use . . . . . . . . . . . . . . . . 15
II.

The Supreme Court of Iowa erred in
concluding that a “traditional public use” per
se satisfies the Fifth Amendment without
engaging in the “public purpose” analysis
mandated by Kelo . . . . . . . . . . . . . . . . . . . . . 16
A. The Supreme Court of Iowa improperly
relied on the formalistic “common
carrier” label to ignore the “public
purpose” test. . . . . . . . . . . . . . . . . . . . . . . 16
B. The Dakota Access pipeline provides, at
most, incidental benefits within Iowa . . . 19

III.

This case presents an ideal vehicle for
dispelling this confusion . . . . . . . . . . . . . . . . 21

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
APPENDIX
Appendix A Decision in the Supreme Court of Iowa
(May 31, 2019). . . . . . . . . . . . . . . . App. 1

vi
Appendix B Ruling on Judicial Review in the Iowa
District Court for Polk County
(February 15, 2017) . . . . . . . . . . App. 59
Appendix C Final Decision and Order of the State
of Iowa Department of Commerce
Utilities Board
(March 10, 2016) . . . . . . . . . . . . App. 108

vii
TABLE OF AUTHORITIES
CASES
Adams v. Greenwich Water Co.,
83 A.2d 177 (Conn. 1951) . . . . . . . . . . . . . . . . . . 20
Berman v. Parker,
348 U.S. 26 (1954). . . . . . . . . . . . . . . . . . . . . . . . 12
Carole Media LLC v. N.J. Transit Corp.,
550 F.3d 302 (3d Cir. 2008) . . . . . . . . . . . . . . . . 13
Cty. of Hawai’i v. C & J Coupe Family Ltd. P’ship,
198 P.3d 615 (2008). . . . . . . . . . . . . . . . . . . . . . . 11
Cnty. of Hawaii v. C & J Coupe Family Ltd. P’ship,
242 P.3d 1136 (Haw. 2010). . . . . . . . . . . . . . 10, 11
Franco v. Nat’l Capital Revitalization Corp.,
930 A.2d 160 (D.C. 2007) . . . . . . . . . . . . . . . 13, 14
Goldstein v. Pataki,
516 F.3d 50 (2d Cir. 2008) . . . . . . . . . . . . . . 15, 16
Grover Irrigation & Land Co. v. Lovella Ditch,
Reservoir & Irrigation Co.,
21 Wyo. 204 (1913) . . . . . . . . . . . . . . . . . . . . . . . 20
Hawaii Hous. Auth. v. Midkiff,
467 U.S. 229 (1984). . . . . . . . . . . . . . . . . . . . . . . 16
Kelo v. City of New London,
545 U.S. 469 (2005). . . . . . . . . . . . . . . . . . . passim
Kohl v. United States,
91 U.S. 367 (1875). . . . . . . . . . . . . . . . . . . . . . . . 20

viii
Mayor & City Council of Baltimore City v.
Valsamaki, 916 A.2d 324 (Md. 2007) . . . . . . 12, 13
Middletown Twp. v. Lands of Stone,
939 A.2d 331 (Pa. 2007) . . . . . . . . . . . . . . . . . . . 12
Mt. Vernon-Woodberry Cotton Duck Co. v. Alabama
Interstate Power Co., 240 U.S. 30 (1916) . . . . . . 19
Nat’l R.R. Passenger Corp. v. Bos. & Maine Corp.,
503 U.S. 407 (1992). . . . . . . . . . . . . . . . . . . . . . . 19
New England Estates, LLC v. Town of Branford,
988 A.2d 229 (Conn. 2010) . . . . . . . . . . . . . . . . . 10
R.I. Econ. Dev. Corp. v. The Parking Co., L.P.,
892 A.2d 87 (R.I. 2006) . . . . . . . . . . . . . . . . . . . . 12
Rosenthal & Rosenthal, Inc. v. N.Y. State Urban
Dev. Corp., 771 F.2d 44 (2d Cir. 1985) . . . . . 15, 16
CONSTITUTION AND STATUTES
U.S. Const., amend. V . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITY
Ilya Somin, The Judicial Reaction to Kelo, 4 Alb.
Gov’t L. Rev. 1 (2011) . . . . . . . . . . . . . . . . . . . . . 10

1
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the Supreme Court of Iowa.
OPINIONS BELOW
The opinion of the Supreme Court of Iowa (App.
1–58) is reported at 928 N.W.2d 829 (Iowa 2019). The
opinion of the Iowa District Court for Polk County
(App. 59–107) is unreported. The final decision of the
Iowa Utilities Board (App. 109–292) is unreported but
available at 2016 WL 943929 (Mar. 10, 2016).
JURISDICTION
The decision of the Supreme Court of Iowa was
entered on May 31, 2019. On August 19, 2019, Justice
Gorsuch extended the time for filing a petition for a
writ of certiorari to September 30, 2019. This Court
has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Fifth Amendment to the United States
Constitution provides, in relevant part: “nor shall
private property be taken for public use, without just
compensation.”
STATEMENT OF THE CASE
This case raises the question of whether a state may
condemn private property and transfer it to another
private actor when it is undisputed that no member of
the state’s public will be able to use or directly benefit
from the use of the condemned property. The correct
answer to that question is no. But courts in different

2
jurisdictions answer it differently. Because courts are
sharply divided on how to answer that question, only
this Court’s intervention can bring much-needed clarity
to this area of the law.
The Fifth Amendment’s Takings Clause provides:
“[n]or shall private property be taken for public use,
without just compensation.” U.S. Const., amend. V.
And under Kelo v. City of New London, whether a
taking is for a valid “public use” “turns on the question
whether [the taking] serves a ‘public purpose.’” 545
U.S. 469, 480 (2005).
Kelo concerned takings initiated to effectuate an
economic development plan. The Court held that the
City of New London’s “carefully formulated economic
development plan,” which the City “believe[d] w[ould]
provide appreciable benefits to the community,
including—but by no means limited to—new jobs and
increased tax revenue” “unquestionably serve[d] a
public purpose.” Id. at 484.
Despite approving the taking at issue, the Kelo
majority recognized and reaffirmed the “long . . .
accepted” rule that “the sovereign may not take the
property of A for the sole purpose of transferring it to
another private party B, even though A is paid just
compensation.” Id. at 477. Further, the Court held it
would be impermissible for the government to take
property “under the mere pretext of a public purpose,
when its actual purpose was to bestow a private
benefit.” Id. at 478. The Court, however, held such
considerations were inapplicable to the facts at hand:
“The takings before us . . . would be executed pursuant
to a ‘carefully considered’ development plan” and “[t]he

3
trial judge and all members of the Supreme Court of
Connecticut agreed that there was no evidence of an
illegitimate purpose in this case.” Id. at 478.
Justice Kennedy, who concurred in the opinion and
the judgment, provided the fifth vote and instructed
that courts should “strike down” takings that, “by a
clear showing,” are “intended to favor a particular
private party, with only incidental or pretextual public
benefits.” Id. at 491 (Kennedy, J., concurring). But
while Justice Kennedy concluded that a “plausible
accusation of impermissible favoritism” would warrant
more intense scrutiny of the government’s stated
purpose, id., he “underscore[d] aspects of the instant
case” that convinced him no such heightened scrutiny
was warranted. These aspects included that “[t]his
taking occurred in the context of a comprehensive
development plan meant to address a serious citywide
depression”; “the projected economic benefits of the
project cannot be characterized as de minimis”; “[t]he
identities of most of the private beneficiaries were
unknown at the time the city formulated its plans”; and
“[t]he city complied with elaborate procedural
requirements that facilitate[d] review of the record and
inquiry into the city’s purposes.” Id. at 493.
Justice O’Connor, joined by three other Justices,
dissented. Justice O’Connor agreed that “incidental
public benefits” were insufficient to satisfy the “public
use” requirement of the Takings Clause. Id. at 494
(O’Connor, J., dissenting). But she disagreed on the
application of that standard to the facts at hand,
concluding that “[t]o reason, as the Court does,” that
“public benefits resulting from the [post-taking]

4
ordinary use of private property” were enough “is to
wash out any distinction between private and public
use of property—and thereby effectively to delete the
words ‘for public use’ from the Takings Clause of the
Fifth Amendment.” Id.
The entire Court in Kelo thus agreed that takings
benefitting a private party with only pretextual or
incidental benefits to the public are impermissible. But
none of the opinions in Kelo purported to define the
boundary between a permissible public-purpose taking
and an impermissible incidental- or pretextual-benefit
taking. As a result, lower courts have fixed the
boundary at different locations—meaning that whether
a taking passes constitutional muster depends on the
jurisdiction where it takes place.
The facts of this case illustrate the problem
perfectly, with a taking that provides public benefits
far more incidental than those found to satisfy the
Fifth Amendment in Kelo. The Iowa Utilities Board
authorized the use of eminent domain to build a crudeoil pipeline that crosses Iowa, but will not pick up or
drop off oil within Iowa’s boundaries. It is undisputed
that no member of the Iowa public can use the pipeline,
nor will any member of the Iowa public ever benefit
from it, except in the sense that the pipeline may
eventually lead to lower prices for goods and services
that depend on crude oil globally. The pipeline is, in all
relevant respects, a private enterprise.
But, because the pipeline can be labeled a common
carrier of oil (in that some “walk-up” shippers may be
able to use it where the pipeline begins, in North
Dakota), the Supreme Court of Iowa held that it fell

5
into a traditional category of public use and conducted
no public purpose analysis under the Fifth
Amendment. App. 40.
With this holding, the Iowa Supreme Court
contributed to an entrenched split of authority. Lower
courts are sharply divided on the question of how to
analyze takings where the benefits to the public are
asserted to be incidental or pretextual. Some focus on
the degree to which there is an integrated development
plan; others examine the intentions of the taking
authority; yet others look to a weighing of public and
private benefits. And at least two courts (including the
court below) conduct no analysis on whether a stated
public purpose is pretextual when the court can apply
the label of a “traditional” public use. No approach has
garnered majority support.
The Iowa Supreme Court also misapplied this
Court’s precedent in a way that will have devastating
effects. Under that court’s view, a mere label is
sufficient to justify the transfer of private property
from one private party to another, even if no “public
purpose” is served.
Only this Court can put an end to the confusion and
set the law right. Certiorari should be granted.
I.

Procedural Background
A. Petitioners and the Dakota Access
Pipeline

Respondent Dakota Access, LLC (“Dakota Access”)
initiated proceedings before the Iowa Utilities Board
(“IUB”) in 2014, disclosing its intent to build an

6
underground crude-oil pipeline from western North
Dakota to Pakota, Illinois, a transportation hub from
which the crude oil would subsequently be shipped.
App. 5. The pipeline would cross Iowa from one corner
of the state to another—totaling 343 miles of travel.
Id.
Petitioners are Iowa landowners and Iowa
landowner associations who have challenged the taking
of their property for the purpose of building the subject
pipeline. App. 4.
B. The Taking
The IUB held public meetings in each of the affected
counties in December 2014. App. 5. Dakota Access
then filed a petition with the IUB seeking authority to
build the pipeline, and the authority to use eminent
domain to secure rights-of-way for the proposed
pipeline. Id.
Petitioners and various other groups intervened in
the proceedings, and a hearing took place over multiple
days in November and December 2015. App. 6. On
March 10, 2016, the IUB issued a 159-page final
decision and order approving the project and the use of
eminent domain. In relevant part, it held that the use
of eminent domain was not inconsistent with the Fifth
Amendment to the Constitution. App. 8.
The IUB denied petitions for rehearing after it
issued its final order, on April 28, 2016. App. 9.

7
C. Judicial Review in Iowa District Court
Petitioners filed petitions for judicial review of the
IUB’s decision in the District Court for Polk County in
May 2016. App. 9. On February 15, 2017, the district
court denied the petitions for judicial review, rejecting
Petitioners’ challenge that the exercise of eminent
domain was unconstitutional because it did not
constitute a “public use” under the Fifth Amendment to
the U.S. Constitution. App. 10–11.
Petitioners appealed the district court’s decision,
and the Iowa Supreme Court took jurisdiction. App.
11.
II.

The Iowa Supreme Court’s Decision

The Iowa Supreme Court issued its decision on May
31, 2019, affirming the district court’s ruling in all
respects. App. 1–58. While purporting to reject
“economic development” as a valid public purpose, the
court nonetheless rejected Petitioners’ Fifth
Amendment challenge on the ground that the pipeline
constitutes a common carrier. App. 30–51. The court
surmised that, because the pipeline would reserve ten
percent of its capacity for “walk-up” shippers in North
Dakota, it qualified as a common carrier under the
Federal Energy Regulatory Commission’s definition of
common carrier, and therefore qualified as a common
carrier under Iowa law. App. 28–30. This commoncarrier holding supplied the basis for the court’s
determination that the taking satisfied the Fifth
Amendment. App. 40.
Relying on Justice O’Connor’s comment in her Kelo
dissent that “the sovereign may transfer private

8
property to private parties, often common carriers, who
make the property available for the public’s use—such
as with a railroad, a public utility, or a stadium,” Kelo,
545 U.S. at 498 (O’Connor, J. dissenting), the court
reasoned that the pipeline qualified as a “traditionally
valid public use[],” App. 40. The court rebuffed
Petitioners’ argument that, regardless of the commoncarrier status of the pipeline, “no Iowa business or
consumer will actually use the pipeline to deliver or
receive crude oil,” dismissing the argument as “too
formalistic.” App. 42. Instead, the court held, contrary
to settled Fifth Amendment principles, that use by
Iowans was not a prerequisite to a common-carrier
taking, since Iowa depends on petroleum products, and
the pipeline would reduce the cost of such products in
the open market. App. 44.
The court did not otherwise engage in any analysis
of whether the taking was for a public purpose, as Kelo
requires. Instead, because the court concluded that
transferring land to an entity that has common carrier
status per se satisfies the Takings Clause, it rejected
Petitioners’ Fifth Amendment challenge.
Justice Wiggins, writing for himself and Justice
Appel, concurred in part and dissented in part. Justice
Wiggins agreed that Iowa should apply Justice
O’Connor’s Kelo dissent, but he disagreed that the
pipeline qualified as a common carrier for purposes of
the constitutional analysis because “[i]nherent” in the
common-carrier rule “is that the condemning
sovereign’s public be able to use the taken property,”
and the pipeline at issue here cannot be used by
members of the Iowa public. App. 52.

9
Petitioners now timely petition this Court for review
of the Iowa Supreme Court’s decision.
REASONS FOR GRANTING THE WRIT
I.

Courts are split on how to evaluate
whether a taking for use by a private entity
has a pretextual or incidental public
purpose under the Takings Clause.

This case provides an ideal vehicle to provide lower
courts with much-needed guidance on the
circumstances under which a state may transfer
property from one private party to another where the
purported benefits of a taking are pretextual or
incidental to the public served by the authority
performing the taking.
All Members of the Kelo Court agreed that the
Takings Clause does not permit the forced transfer of
property to a private entity for “pretextual” or
“incidental” public purposes. The majority recognized
that the City of New London “would no doubt be
forbidden from taking petitioners’ land for the purpose
of conferring a private benefit on a particular private
party,” “[n]or would the City be allowed to take
property under the mere pretext of a public purpose,
when its actual purpose was to bestow a private
benefit.” 545 U.S. at 477–78. Similarly, Justice
Kennedy, in his concurrence, wrote that “transfers
intended to confer benefits on particular, favored
private entities, and with only incidental or pretextual
public benefits, are forbidden by the Public Use
Clause.” Id. at 490 (Kennedy, J., concurring). And
Justice O’Connor—joined by three other Justices—

10
similarly concluded that “incidental public benefits”
were insufficient to show a valid public purpose under
the Takings Clause.
Id. at 494 (O’Connor, J.,
dissenting).
But despite agreeing that pretextual or incidental
public purposes are improper, the various Kelo opinions
did not provide guidance to lower courts as to what
constitutes a pretextual or incidental public purpose.
And so, lower courts, left to their own devices, have
fractured on the appropriate test—with the decision
below reinforcing an entrenched split in authority.
There is thus “no consensus in sight on this crucial
issue.” Ilya Somin, The Judicial Reaction to Kelo, 4
Alb. Gov’t L. Rev. 1, 3 (2011).
A. Multiple courts permit inquiries into
subjective intent underlying a taking.
In states such as Hawaii and Connecticut, courts
shun the formalistic approach employed by the Iowa
Supreme Court. The Supreme Court of Hawaii has
explicitly declined to adopt any “per se pretext rule”
and authorized courts to “look beyond government
findings and declarations in deciding whether the
stated public purpose was pretextual.” Cnty. of Hawaii
v. C & J Coupe Family Ltd. P’ship, 242 P.3d 1136, 1148
(Haw. 2010).
Likewise, the Supreme Court of
Connecticut—whose judgment this Court reviewed in
Kelo—has held “that a government actor’s bad faith
exercise of the power of eminent domain is a violation
of the takings clause.” New England Estates, LLC v.
Town of Branford, 988 A.2d 229, 252 (Conn. 2010). The
court expressly distinguished Kelo on the ground that
Kelo “did not involve any allegations that the city of

11
New London acted in bad faith in taking private
property.” Id. at 253 n.28.
Under this approach, merely applying the label of a
traditional public use will not end the Takings Clause
inquiry. As the Supreme Court of Hawaii put it, “the
single fact that project is a road does not per se make
it a public road,” and even in “considering a
condemnation action for the purpose of constructing a
public road, there is no mechanical formula for
determining public use.” Cty. of Hawaii, 242 P.3d at
1152 (quoting Cty. of Hawai’i v. C & J Coupe Family
Ltd. P’ship, 198 P.3d 615, 643 n.32 (2008)).
B. Multiple courts assess a taking’s
purpose by focusing on the nature of
pre-taking planning.
Other courts, taking their cue from descriptions of
the pre-takings planning process in Kelo, treat objective
planning-related factors as critical, if not dispositive,
proof of a taking’s real purpose.
For example, multiple courts have found it
significant that the taking in Kelo was pursuant to a
“comprehensive” development plan with “thorough
deliberation.” Kelo, 545 U.S. at 484. In one such case,
the Supreme Court of Pennsylvania held a township
had not properly exercised eminent domain when
condemning a farm to provide public recreational
space. In reaching this conclusion, the court noted that
Kelo “placed great weight upon the existence of a
‘carefully considered’ development,” and held that
“[c]learly, evidence of a well-developed plan of proper
scope is significant proof that an authorized purpose

12
truly motivates a taking.” Middletown Twp. v. Lands
of Stone, 939 A.2d 331, 338 (Pa. 2007) (quoting Kelo,
545 U.S. at 478)). Concluding that “there must be some
substantial and rational proof by way of an intelligent
plan that demonstrates informed judgment to prove
that an authorized public purpose is the true goal of
the taking,” the court rejected the proffered purpose
because “[t]he record does not support any finding of a
condemnation proceeding informed by intelligent
judgment or a concrete plan to use the . . . farm for the
authorized purpose of recreation.” Id. at 340.
Courts in other states have also read Kelo to put
great weight on the concreteness and thoroughness of
pre-takings planning. The Supreme Court of Rhode
Island, for example, has rejected a stated public
purpose as pretextual after finding that the
“exhaustive preparatory efforts [in Kelo] . . . stand in
stark contrast to [the Rhode Island Economic
Development Corporation’s] approach in the case
before us.” R.I. Econ. Dev. Corp. v. The Parking Co.,
L.P., 892 A.2d 87, 104 (R.I. 2006).
Similarly, the Court of Appeals of Maryland has
held that where “the only ‘plan’ for the [property to be
taken] is that a private developer will possibly, at some
future time, create a plan that the City [of Baltimore]
might approve,” the taking would not “fully comport
with the holdings of the Supreme Court in Kelo” or
Berman v. Parker, 348 U.S. 26 (1954), which “were
conducted pursuant to comprehensive development
plans that were in place prior to the takings.” Mayor
& City Council of Baltimore City v. Valsamaki, 916
A.2d 324, 352 (Md. 2007). The court even implied that

13
a planning process was a necessary precondition of a
taking: “It is virtually impossible to determine the
extent of the public/private dichotomy when no one
knows the who, what, and whether of the future use of
the property,” “[n]or can a property owner challenge
the public use aspect of a plan for a property until
there is a plan in place for the use of that property.”
Id. at 353.
The United States Court of Appeals for the Third
Circuit has focused on planning-related issues, but
views the critical question as one of timing. In that
court’s view, what matters is whether the identity of
the private entity that will benefit from a taking is
known before condemnation. Absent that, the court
has held, there “cannot be the textbook private taking
involving a naked transfer of property private party A
to B solely for B’s private use and benefit.” Carole
Media LLC v. N.J. Transit Corp., 550 F.3d 302, 311 (3d
Cir. 2008).
Here, too, merely applying the label of a “traditional
public use” would not end the public purpose inquiry.
Instead, other factors—the extent of pre-taking
planning or the time at which the identity of the
taking’s beneficiary becomes known—are elevated.
C. At least one court weighs public and
private benefits against each other.
Taking yet another tack for assessing the true
nature of a taking’s purpose, the District of Columbia
Court of Appeals has “conclude[d] that a reviewing
court must focus primarily on benefits the public hopes
to realize from the proposed taking.” Franco v. Nat’l

14
Capital Revitalization Corp., 930 A.2d 160, 173 (D.C.
2007). This framework appears to contemplate a
balancing test:
If the property is being transferred to another
private party, and the benefits to the public are
only “incidental” or “pretextual,” a “pretext”
defense may well succeed. On the other hand, if
the record discloses (in the words of the trial
court) that the taking will serve “an overriding
public purpose” and that the proposed
development “will provide substantial benefits to
the public,” the courts must defer to the
judgment of the legislature. Harder cases will
lie between these extremes.
Id. at 173–74.
In adopting this test, the court dismissed the notion
of inquiring into government actors’ subjective intent
(an approach allowed by courts in Hawaii and
Connecticut) because “there are formidable barriers to
discovering the motives and intentions of individual
legislators.” Id. at 173 (footnotes omitted). The court
also declined to adopt a test that turned on whether
“the identities of the benefiting private parties were
known before the taking was authorized,” (the position
of the Third Circuit), or the existence of a
“comprehensive plan for redeveloping the area” (the
critical factor for courts in Pennsylvania, Maryland,
and Rhode Island). Id. at 175. In the court’s view,
“nothing in Kelo suggests” that these factors “set
constitutional standards.” Id.

15
Under the District of Columbia’s approach, the
stated purpose of a taking—and whether that stated
purpose can be labeled a traditional public use—does
not decide the inquiry. Instead, courts must carefully
weigh the extent of private and public benefits against
each other. In a case like this, where the only benefits
to the Iowa public are undisputedly incidental, the
taking’s validity ought not pass muster.
D. Two courts engage in no pretext
analysis at all when a project can be
labeled a traditional public use.
Finally, at least two courts, including the court
below, hold there is no need to assess a taking’s
purpose so long as the planned project falls into what
the court views as a traditional public use.
In the context of a “multibillion dollar development
project” that included a “new stadium for the New
Jersey Nets,” the United States Court of Appeals for
the Second Circuit dismissed allegations of pretext
because the project would encompass blighted areas,
and “the redevelopment of a blighted area, even
standing alone, represents a ‘classic example of a
taking for a public use.’” Goldstein v. Pataki, 516 F.3d
50, 52, 59 (2d Cir. 2008) (quoting Rosenthal &
Rosenthal, Inc. v. N.Y. State Urban Dev. Corp., 771
F.2d 44, 46 (2d Cir. 1985)). That stated purpose, the
court reasoned, obviated the need for a pretext
analysis: “where, as here, a redevelopment plan is
justified in reference to several classic public uses
whose objective basis is not in doubt,” the court’s only
function was to determine if the state “rationally could
have believed that the [taking] would promote its

16
objective.” Id. at 63–64 (quoting Hawaii Hous. Auth. v.
Midkiff, 467 U.S. 229, 242 (1984) (emphasis omitted)).
Similarly, in this case, the Supreme Court of Iowa
recognized that Kelo forbids “the legislature [from]
empower[ing] A to take B’s home just because A
planned to erect something new on the lot,” App. 39
n.4, but concluded there was no Takings Clause
problem because “this case falls into [one of] the . . .
categor[ies] of traditionally valid public uses cited by
Justice O’Connor: a common carrier akin to a railroad
or a public utility,” App. 40. Even though it was
undisputed that “no Iowa business or consumer will
actually use the pipeline to deliver or receive crude oil,”
App. 42, the court still found the pipeline served a valid
public purpose because of its earlier determination that
“the pipeline is a common carrier with the potential to
benefit all consumers of petroleum products, including
three million Iowans,” App. 42.
II.

The Supreme Court of Iowa erred in
concluding that a “traditional public use”
per se satisfies the Fifth Amendment
without engaging in the “public purpose”
analysis mandated by Kelo.
A. The Supreme Court of Iowa improperly
relied on the formalistic “common
carrier” label to ignore the “public
purpose” test.

The Court in Kelo held that the question of whether
a taking is permitted by the Fifth Amendment “turns
on the question whether the [taking authority’s]
development plan serves a ‘public purpose.’” 545 U.S.

17
at 480. While this test “afford[s] legislatures broad
latitude in determining what public needs justify the
use of the takings power,” id. at 483, it is not toothless.
The Court forbade takings “for the purpose of
conferring a private benefit on a particular private
party” and takings performed “under the mere pretext
of a public purpose, when [the government’s] actual
purpose was to bestow a private benefit.” Id. at 478.
Thus, the Court cautioned against a “one-to-one
transfer of property” from one private party to another
“executed outside the confines of an integrated
development plan” and “for the sole reason that [the
latter] will put the property to a more productive use
and thus pay more taxes.” Id. at 487. The Court noted
that such a taking would constitute an “aberration[]”
and an “unusual exercise of government power [that]
would certainly raise a suspicion that a private purpose
was afoot.” Id. at 487 & n.17.
Here, the Iowa Supreme Court eschewed the
entirety of the Kelo majority’s public purpose analysis.
Indeed, the court purported to disagree with the Kelo
majority opinion, holding, as other states have done,
that “Justice O’Connor’s dissent provides a more sound
interpretation of the public-use requirement.” App. 39.
In casting aside the Kelo majority, the Iowa court
reasoned that “[i]f economic development alone were a
valid public use, then instead of building a pipeline,
Dakota Access could constitutionally condemn Iowa
farmland to build a palatial mansion” so long as it
required workers to build it and it resulted in
additional tax revenue. Id.

18
But, in purporting to apply the Kelo dissent, the
court applied no test at all, and consequently fell below
the constitutional minimum set by the majority. While
the court looked askance at the pipeline’s purported
“trickle-down benefits of economic development,” App.
41, it nevertheless blessed the taking without applying
any of the public purpose analysis adopted by the Kelo
majority. Instead, the court found that the pipeline
satisfied the Fifth Amendment because it constituted,
in the court’s view, a traditional public use: that of a
common carrier such as a railroad or public utility.
App. 42.
In concluding that a state need not look beyond the
mere label of “common carrier” when analyzing the
constitutionality of a taking, the court not only
misinterpreted Justice O’Connor’s dissent, but violated
the guidance of the Kelo majority opinion.
Kelo requires an analysis of whether the proposed
taking serves a public purpose in the community where
the taking is performed. 545 U.S. at 484–87. Nothing
in Kelo permits a state merely to label a taking a
“traditional public use” without further analysis. The
Kelo majority did acknowledge that a state may
perform a taking for “future ‘use by the public’” such as
railroad takings, because railroads are obligated by
“common-carrier duties.” Kelo, 545 U.S. at 477. But
such a finding would require an actual “use by the
public.” As discussed more fully below, the pipeline
here cannot be used by any member of the Iowa
public—a fact the court below conceded.
Nor did the dissent in Kelo bless the formalistic
approach taken by the court below. Justice O’Connor

19
did observe that “the sovereign may transfer private
property to private parties, often common carriers, who
make the property available for the public’s use—such
as with a railroad, a public utility, or a stadium.” Id. at
498 (O’Connor, J. dissenting). But, again, it is
conceded here that no public use of the pipeline is
possible by members of the Iowa public. And the cases
on which Justice O’Connor relied for support make
clear that public use is the touchstone of any finding
that a common carrier may enjoy the benefits of
eminent domain. See Nat’l R.R. Passenger Corp. v. Bos.
& Maine Corp., 503 U.S. 407, 422 (1992) (holding a
federal taking by the Interstate Commerce Commission
for a passenger railroad was a “public use”); Mt.
Vernon-Woodberry Cotton Duck Co. v. Alabama
Interstate Power Co., 240 U.S. 30, 32 (1916) (holding a
taking by Tallapoosa county for an electric utility that
served the same community was a “public use”).
Under either the majority or dissenting opinions in
Kelo, the Iowa Supreme Court was required to
determine whether the pipeline would, in fact, serve a
public purpose in Iowa. Because the court chose to
ignore the majority opinion and misapplied the
dissenting opinion, its holding runs afoul of Kelo.
B. The Dakota Access pipeline provides, at
most, incidental benefits within Iowa.
The Iowa Supreme Court’s failure to engage in the
public purpose analysis, opting instead to rely on the
formalistic “common carrier” label to bless the taking,
obscured the fact that no public purpose will, in fact, be
served by the pipeline. The court conceded that “no
Iowa business or consumer will actually use the

20
pipeline to deliver or receive crude oil,” but, ironically,
the court dismissed Petitioners’ objection on this
ground as “too formalistic.” App. 42. Instead, the court
reasoned that the Iowa public would enjoy, as a result
of the pipeline, “longer-term, reduced prices on refined
products and goods and service dependent on crude oil
and refined products.” App. 24. This sleight of hand
essentially adopts a finding of incidental economic
benefits and blesses a taking premised on such meager
benefits so long as the taking also benefits an entity
that can be labeled a common carrier.
Neither the law nor the record support such a
holding. The Iowa Supreme Court should have taken
seriously the objection that the pipeline would not
serve any public purpose in Iowa. Courts, including
this Court, have long held that the exercise of eminent
domain is circumscribed by the rule that a taking may
be performed only for the benefit of the taking
authority’s community. See Kohl v. United States, 91
U.S. 367, 373–74 (1875) (“The proper view of the right
of eminent domain seems to be, that it is a right
belonging to a sovereignty to take private property for
its own public uses, and not for those of another.”); see
also Adams v. Greenwich Water Co., 83 A.2d 177, 182
(Conn. 1951) (“[N]o state is permitted to exercise or
authorize the exercise of the power of eminent domain
except for a public use within its own borders.”); Grover
Irrigation & Land Co. v. Lovella Ditch, Reservoir &
Irrigation Co., 21 Wyo. 204 (1913) (holding the exercise
of eminent domain must “have some substantial
relation to a public purpose and the public interest and
welfare of the state wherein the land to be taken is
located.”).

21
Indeed, in Kelo itself, this Court approved the
taking in large part because of the “appreciable
benefits to the community” where the taking took
place. 545 U.S. at 483.
Nothing in the law prevents, for example, a federal
taking that benefits the United States as a whole. But
Iowa’s power to use eminent domain is constrained by
the public purposes it may serve within the state’s
boundaries; its use of eminent domain to benefit
private parties for private benefit felt solely in other
states does not satisfy Kelo’s “public purpose” test, nor
the “public use” requirement of the Fifth Amendment.
III.

This case presents an ideal vehicle for
dispelling this confusion.

This case presents the Court with the opportunity
to clarify Kelo and settle the longstanding dispute over
the level of scrutiny a taking should be afforded where
the purported benefits to the public are incidental or
pretextual. Because the Iowa court purported to apply
a protective approach to property rights, but instead
violated every opinion in Kelo, this case presents a
unique opportunity to course-correct. Absent review,
states may continue to apply Kelo inconsistently,
leading to constitutionally inadequate protection of
private property rights.
The danger of the Iowa court’s analysis in today’s
modern economy is palpable. In this case, a wealthy
pipeline operator secured a delegation of eminent
domain power from the State of Iowa to build a private
pipeline across that state. While the State of Iowa has
deemed the construction of oil pipelines in the public

22
interest generally, its constitutional power of eminent
domain does not stretch so far as to permit what is, in
essence, an interstate common carrier to ship oil under
the private property of state landowners without any
use or benefit conveyed to the community of that state.
This Court should intervene in the widening dispute
over the way to apply Kelo to make clear that courts
following Iowa’s approach violate the Fifth
Amendment.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
EDUARDO E. SANTACANA
Counsel of Record
JAY RAPAPORT
KEKER, VAN NEST & PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
esantacana@keker.com
Counsel for Petitioners

